No. ___________________
In the
Supreme Court of the United States
_______________________________________
DANIEL SOHN AND JULIET SOHN,
Petitioners,
v.
COUNTY OF MARIPOSA, etc., et al.,
Respondents.
_______________________________________
On Petition for Writ of Certiorari to the
California Court of Appeal, Fifth Appellate District

___________________________________________
PETITION FOR WRIT OF CERTIORARI
___________________________________________

Janice R. Mazur
Counsel of Record
Mazur & Mazur, LLC
13465 Camino Canada,
No. 106-103
El Cajon, California 92021
Tel: 800-383-5002
email: appealslawyer@aol.com
Counsel for Petitioners

i
QUESTIONS PRESENTED
1. Where a government entity enters and takes
real and personal property of its citizens under color of
law based on an intentional misinterpretation of a
statute, to wit, California’s Subdivision Map Act, does
such conduct constitute a violation of the property
owners’ rights under the Fourth, Fifth and Fourteenth
Amendments of the U.S. Constitution and a violation
of their civil rights within the meaning of 42 U.S.C.
1983?
2. If so, does a cause of action for violation of
civil rights under 42 U.S.C. 1983 based on an illegal
entry onto real property by a government entity accrue
at the time of the alleged entry?
3. Where a government entity knowingly and
repeatedly engages in a long-term conspiracy with
developers and others to circumvent statutory law, to
wit, California’s Subdivision Map Act, does such
conduct constitute a violation of the rights of impacted
property owners under the Fourth, Fifth and
Fourteenth Amendments of the U.S. Constitution and
a violation of their civil rights within the meaning of
42 U.S.C. 1983?
4. If so, does a cause of action for violation of
civil rights under 42 U.S.C. 1983 based on an alleged
conspiracy by a government entity to circumvent
statutory law, accrue at the time the plaintiffs first
learn of repeated instances of the conduct which
strongly suggest an intentional scheme?

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
In addition to the County of Mariposa,
defendants/respondents are: Mariposa County
Department of Public Works, Tony Stobbe, Gary
Taylor, Russell Marks and Mike Ziegenfuss.
Petitioners are individuals and not corporations
within the meaning of Rule 29.6.
RULE 14(b)(iii) STATEMENT
The proceedings in the California trial and
appellate courts identified below are directly related to
the above-captioned case in this Court.
Sohn v. County of Mariposa, etc., et al., Superior
Court of California in and for the County of Mariposa,
Case No. 10841. An order sustaining the County
defendants’ demurrer and a Judgment in their favor
were entered on September 15, 2017.
Sohn v. County of Mariposa, etc., et al., Court of
Appeal for the State of California, Fifth Appellate
District, Case No. F076677. On March 18, 2020, the
appellate court issued its opinion affirming the trial
court. On April 9, 2020, the appellate court denied
appellants’ Petition for Rehearing.
Sohn v. County of Mariposa, etc., et al., Supreme
Court for the State of California, Case No. S261854.
On June 17, 2020, the Supreme Court denied
petitioners’ Petition for Review.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . I
PARTIES TO THE PROCEEDINGS AND RULE 29.6
STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RULE 14(b)(iii) STATEMENT. . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS. . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL & STATUTORY PROVISIONS
INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . 6
WHY CERTIORARI SHOULD BE GRANTED. . . 10
ARGUMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A.

It is undisputed that the Civil Right claim is
subject to a two-year statute of limitations and
that it is an abuse of discretion to deny leave to
amend if there is any reasonable possibility that
a the defect in the complaint can be cured by
amendment. . . . . . . . . . . . . . . . . . . . . . . . . . 12

iv
B.

Elements of a section 1983 civil rights violation
claim. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

C.

Relevant provisions of the Subdivision Map Act
and the law interpreting it.. . . . . . . . . . . . . 14

D.

1.

Under Government Code section 66477.2,
an offer of dedication remains open for
later acceptance only after it has been
affirmatively rejected as contemplated in
section 66440. . . . . . . . . . . . . . . . . . . 15

2.

The case law relied on by the County is
inapplicable, as it addresses situations
unlike this one, when the offer of
dedication has been rejected. . . . . . . 18

The Sohn’s first proposed amendment is not
barred by the statute of limitations because the
violation did not occur until May 2015, and in
any event, the Sohns did not have actual or
constructive notice that the County had not
validly accepted the easement until 2015. . 22
1.

The violation did not occur until May of
2015. . . . . . . . . . . . . . . . . . . . . . . . . . 23

2.

The facts as alleged, which must be
deemed true for purposes of demurrer,
establish that the Sohns had no actual or
constructive notice of the County’s
invalid acceptance of the easement, and
no reason to investigate it, until 2015.24

v
E.

The Sohn’s second proposed amendment is not
barred by the statute of limitations because
they did not have actual or constructive notice
of the alleged conspiracy until 2016. . . . . . 25

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
APPENDIX
Appendix A: Order and Judgment in Superior Court of
California in and for the County of
Mariposa entered on September 15, 2017
. . . . . . . . . . . . . . . . . . . . . . . . . . . . App 1
Appendix B: Opinion of the Court of Appeal for the
State of California, Fifth Appellate
District issued on March 18,
2020. . . . . . . . . . . . . . . . . . . . . . . . App 9
Appendix C: Order of the Court of Appeal for the State
of California, Fifth Appellate District,
denying appellants’ Petition for
Rehearing, issued on April 9,
2020. . . . . . . . . . . . . . . . . . . . . . . App 32
Appendix D: Order of the Supreme Court for the
State of California denying petitioners’
Petition for Review. . . . . . . . . . . App 33

vi
TABLE OF AUTHORITIES
CASES
Action Apartment Assn. v. Santa Monica Rent
Control Opinion Bd.
(9th Cir. 2007) 509 F.3d 1020. . . . . . . . 12, 23
County of Orange v. Cole
(1950) 96 Cal.App.2d 163. . . . . . . . . . . . . . . 21
Dennis v. Higgins
(1991) 498 U.S. 439. . . . . . . . . . . . . . . . . . . 13
Gruschka v. Unemployment Ins. Appeals Bd.
(1985) 169 Cal. App. 3d 789. . . . . . . . . . . . . 17
Hendy v. Losse
(1991) 54 Cal.3d 723.. . . . . . . . . . . . . . . . . . 12
McDougal v. County of Imperial
(9th Cir. 1991) 942 F.2d 668. . . . . . . . . . . . 12
Ratchford v. County of Sonoma
(1972) 22 Cal.App.3d 1056. . . . . . . . . . . . . . 21
Sacramento v. Jensen
(1956) 146 Cal.App.2d 114. . . . . . . . . . . 20, 21
Sanchez v. South Hoover Hospital
(1976) 18 Cal.3d 93.. . . . . . . . . . . . . . . . . . . 12
Steilberg v. Lackner
(1977) 69 Cal.App.3d 780. . . . . . . . . . . . . . . 17

vii
Stump v. Cornell Const. Co.
(1946) 29 Cal.2d 448.. . . . . . . . . . . . . . . 19, 20
West v. Atkins
(1988) 487 U.S. 42. . . . . . . . . . . . . . . . . . . . 14
UNITED STATE CONSTITUTION
Fourth Amendment.. . . . . . . . . . . . . . . . . . . . I, 1, 11
Fifth Amendment. . . . . . . . . . . . . . . . . . . . . . I, 2, 11
Fourteenth Amendment. . . . . . . . . . . . . . . . . I, 2, 11
STATUTES
California Business & Professions Code
sections 11500.. . . . . . . . . . . . . . . . . . . . . . . 19
section 11591. . . . . . . . . . . . . . . . . . . . . . . . 19
section 11616. . . . . . . . . . . . . . . . . . . . . 19, 20
California Code of Civil Procedure
section 335.1. . . . . . . . . . . . . . . . . . . . . . . . . . 8
section 771.010. . . . . . . . . . . . . . . . . . . . . 4, 16
California Government Code
section 66410. . . . . . . . . . . . . . . . . . . . . . . . 14
section 66411. . . . . . . . . . . . . . . . . . . . . . . . 14
section 66412.5. . . . . . . . . . . . . . . . . 10, 11, 26
section 66440. . . . . . . . . 3, 7, 9, 14, 15, 17, 21
section 66447. . . . . . . . . . . . . . . . . . . . . . 4, 15
section 66477.1. . . . . . . . . . . . . . . . . . . . 17, 21

viii
section 66477.2. . . . . . 4, 15, 16, 17, 18, 20, 21
section 66499.38. . . . . . . . . . . . . . . . . . . . . . 14
United States Code
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. 1983 (Civil Rights Act of 1871)
.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Mariposa County Code (County Code)
Title 16. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
RULES OF THE UNITED STATES SUPREME
COURT
rule 14. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
rule 29.6. . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
SECONDARY SOURCES
Merriam-Webster Dictionary. . . . . . . . . . . . . . . . . 17

1
Daniel and Juliet Sohn respectfully petition for
a writ of certiorari to review the judgment of the
California Court of Appeal, Fifth Appellate District.
OPINIONS BELOW
The Superior Court’s order and judgment are at
App. A, infra App 1-8. The unpublished decision of the
California Court of Appeal is available at 2020 WL
1301017 and is at App. B, infra, App 9-31. The Court
of Appeal order denying appellants’ Petition for
Rehearing is at App. C, infra, App 32. The California
Supreme Court’s order denying petitioners’ Petition for
Review is at App. D, infra, App 33.
JURISDICTION
The California Supreme Court’s order denying
the Petition for Review was entered on June 17, 2020.
Appendix D, infra, App. 33. The jurisdiction of this
court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL
&
PROVISIONS INVOLVED

STATUTORY

Fourth Amendment to U.S. Constitution
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.

2
Fifth Amendment to U.S. Constitution
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.
Fourteenth Amendment, Section 1, to the
U.S. Constitution
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

3
42 U.S.C. 1983
Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer's judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
California Government Code Section 66440
(Part of the Subdivision Map Act)
The final map shall contain a certificate or statement
for execution by the clerk of each approving legislative
body stating that the body approved the map and
accepted, accepted subject to improvement, or rejected,
on behalf of the public, any real property offered for
dedication for public use in conformity with the terms
of the offer of dedication.

4
California Government Code Section 66447(a)
(Part of the Subdivision Map Act)
If dedications or offers of dedication are required, they
may be made either by a statement on the parcel map
or by separate instrument, as provided by local
ordinance. If dedications or offers of dedication are
made by separate instrument, the dedications or offers
of dedication shall be recorded concurrently with, or
prior to, the parcel map being filed for record.
California Government Code Section 66447.2(a)
(Part of the Subdivision Map Act)
If at the time the final map is approved, any streets,
paths, alleys, public utility easements, rights-of-way
for local transit facilities such as bus turnouts,
benches, shelters, landing pads, and similar items,
which directly benefit the residents of a subdivision, or
storm drainage easements are rejected, subject to
Section 771.010 of the Code of Civil Procedure, the
offer of dedication shall remain open and the
legislative body may by resolution at any later date,
and without further action by the subdivider, rescind
its action and accept and open the streets, paths,
alleys, rights-of-way for local transit facilities such as
bus turnouts, benches, shelters, landing pads, and
similar items, which directly benefit the residents of a
subdivision, or storm drainage easements for public
use, which acceptance shall be recorded in the office of
the county recorder.

5
INTRODUCTION
Plaintiffs own real property on Vista Grande
Way in Mariposa County, California. The County of
Mariposa asserts a right to a portion of plaintiffs’ real
property by virtue of a public easement which was
presented to the County as an offer of dedication in
1980, but never validly accepted by the County.
Plaintiffs allege that the County violated their civil
rights under color of law within the meaning of the
federal Civil Rights Act of 1871 (42 U.S.C. 1983) when
its agents entered plaintiffs’ property, seized their
personal property, and asserted an invalid claim
against plaintiffs’ property. Plaintiffs further allege
that commencing prior to 1980, and continuing for a
period of time thereafter, the County, by and through
its agents, impliedly or expressly agreed and conspired
with developers and/or subdividers wishing to
subdivide property without complying with the
provisions of California’s Subdivision Map Act
(“SMA”), resulting in loss of the SMA’s protections and
violations of rights and privileges guaranteed to the
plaintiffs and others by the U.S. Constitution.
The trial court sustained, without leave to
amend, the County’s demurrer to the Third Cause of
Action which alleged violation of 42 U.S.C. 1983,
finding it failed to state a cause of action and was
fatally uncertain. On appeal, the County asserted for
the first time that the claim was barred by the
applicable two-year statute of limitations. The Court
of Appeal agreed and affirmed the judgment without
reaching the issues on the merits. But in doing so, the
appellate court misconstrued, omitted or overlooked
material facts which unequivocally establish that the

6
claim was indeed timely filed. The court’s error
precluded it from addressing, or even considering on
the merits, the significant issues of public importance
raised in the appeal.
Review by this court is warranted because the
issues presented are of significant public importance
and of interest well beyond the scope of the dispute
which brought them to the attention of these plaintiffs.
The alleged conduct by the County of Mariposa
involves serious violations of due process and the
unreasonable seizure of property under color of law,
which have been ongoing for many years and which
negatively impact not only these plaintiffs, but
potentially thousands of other residents of Mariposa
County.
STATEMENT OF THE CASE
In 1980, one Gary Bishop subdivided a
previously contiguous piece of property in Mariposa
County into four pieces of property, (one of which
includes the property later acquired by plaintiffs) and
recorded a parcel map on January 21, 1980 for Gary
Bishop at Book 17, Page 10 of Mariposa County
Recorder. (“the Bishop Map”). The four parcels were
designated as Parcels A, B, C and D. Parcels A, B and
C were roughly the same size, each between 5.2 and
5.6 acres. Parcel D was 21.4 acres.
Shortly thereafter, still in 1980, Parcel D of the
Gary Bishop Parcel Map was acquired by Dennis
Huntley who then recorded, on June 4, 1980, a parcel
map at Book 17, page 24, of Mariposa County
Recorder.(“the Huntley Map”). This map subdivided
former Parcel D into four roughly equivalently sized

7
parcels, with each between 5.0 and 6.1 acres. One of
these parcels, (Parcel A) is the property later acquired
by plaintiffs.
The Bishop Map offered for dedication to the
County a 60’ wide nonexclusive easement for public
use and public utilities. The Huntley Map offered for
dedication to the county a 60’ wide nonexclusive
easement for public utilities and access. An
approximate twenty foot wide roadway was later
developed which ran more or less down the middle of
the 60 foot wide strip of land offered for dedication
under both parcel maps. This roadway, which later
became commonly known as Vista Grande Way, is not
named on the final Parcel Maps.
The offers of dedication in the Huntley and
Bishop parcel maps which incorporate plaintiffs’
property were never “accepted, accepted subject to
improvements or rejected” prior to or concurrent with
the filing of the final parcel maps as required by
Government Code section 66440 (which is part of the
Subdivision Map Act (“SMA”).
However, more than eleven years after the
recording of the Bishop and Huntley parcel maps,
Mariposa County purported to accept the offers of
dedication through a separate instrument (Document
Number 911744 entitled “Acceptance of Dedication”)
which was dated and recorded April 5, 1991. That
document purported to accept not only the Bishop and
Huntley offers of dedication, but a total of 175 offers of
dedication which had been previously offered in
various parcel maps filed between 1977 and 1982.
Neither the Bishop nor the Huntley parcel maps
bear any notation or reference to the subsequent 1991
“acceptance” of their offers of dedication, or to

8
Document Number 911744..
Plaintiffs Daniel and Juliet Sohn acquired their
fee ownership interest in the property described as
Parcel A of the Huntley Map, commonly known as
4160 Vista Grande Way, by grant deed dated June 28,
1999.
On November 4, 2016, the Sohns filed their
original complaint against the County defendants. On
April 18, 2017, they filed their operative First
Amended Complaint. (“FAC”). The third cause of
action alleged that on and after May 26, 2015, the
County, by and through its agents, acting under color
of state and Mariposa County law, violated the Sohns’
civil rights when they entered plaintiffs’ property,
removed items of personal property and asserted a
claim to portions of plaintiffs’ real property. Plaintiffs
alleged that these actions caused plaintiffs to suffer a
loss of access to and use of their real and personal
property, and constituted a violation of their right to
be free from unreasonable searches and seizures, and
free from deprivation of property without due process
of law, within the meaning of 42 USC 1983 and the
U.S. Constitution.
The County demurred to plaintiffs’ FAC.
Although it raised statute of limitations defenses to
several of plaintiffs’ other causes of action, it did not
raise a statute of limitations defense to the Third
Cause of Action for violation of civil rights. To the
contrary, the County effectively conceded that the
claim was timely by acknowledging that California’s
two-year personal injury statute of limitations (Code
of Civ. Proc. §335.1) applies to section 1983 claims.
Instead, the County asserted that the Third Cause of
Action was uncertain and failed to adequately state a

9
cause of action. In response, plaintiffs conceded that,
as written, the Third Cause of Action failed to state a
claim, but they requested leave to amend to assert
additional allegations.
The trial court sustained the demurrer to the
third cause of action without leave to amend, only on
the grounds asserted. It made no finding that the
claim was barred by any statute of limitations.
In their Opening Brief on appeal, plaintiffs did
not address the statute of limitations since it had not
been raised as a defense and was not the basis of the
challenged order. They did, however, proffer the
allegations they would make if granted leave to
amend:
First, they asserted that the complaint would be
amended to allege that there are no provisions under
California law which permit the County to
retroactively “accept”, years after the fact, offers of
dedication which had not been previously accepted,
accepted subject to improvements or rejected at the
time the original parcel map was filed as required by
Government Code section 66440. Therefore, the
County’s purported 1991 acceptance of the Huntley
and Bishop offers of dedication (as well as the other
offers of dedication listed in Document Number
911744) were ineffective and void ab initio and the
County defendants had no legal authority to enter the
Sohns’ real property on May 26, 2015.
Second, they asserted the complaint would be
amended to allege that County defendants conspired
with Bishop, Huntley, and other developers and/or
subdividers between 1977 and 1987 to knowingly and
intentionally circumvent the Subdivision Map Act by
exploiting the “minor subdivision” exception under

10
Government Code section 66412.5.
The County filed a Respondents’ Brief which
claimed, for the first time, that the Third Cause of
Action was untimely.
In its opinion, the Court of Appeal concluded,
incorrectly, that both of appellants’ proposed
amendments were barred by the statute of limitations
and affirmed the judgment on that basis alone. The
court did not reach the merits of the statutory
interpretation issue, or the alleged federal civil rights
violations.
WHY CERTIORARI SHOULD BE GRANTED
The issues raised in this case originally came to
light as a consequence of a dispute between neighbors,
a dispute which, at first glance, might not seem worthy
of this Court’s valuable time and limited resources.
But despite this humble origin, the impact of these
issues extend well beyond the boundaries of the
private roadway, Vista Grande Way, and Mariposa
County.
Specifically, the case presents an issue of public
importance related to the interpretation of California’s
Subdivision Map Act which, the plaintiffs allege, the
County of Mariposa has systematically and
intentionally circumvented for years, resulting in
violations of the Constitutional and civil rights of
plaintiffs and many other residents of the County.
It also raises another issue of grave public
importance: Did the County of Mariposa engage in an
extensive, long-term conspiracy or scheme with
developers to circumvent the SMA’s strict regulations
related to environmental reports and testing, grading,

11
drainage, soil, flood control and other matters of public
safety and convenience by exploiting the “minor
subdivision” exception under Government Code section
66412.5?
Despite the importance of the issues and the
seriousness of the allegations against the County of
Mariposa, the Court of Appeal never considered them
on the merits. Rather, it concluded, based on, frankly,
a superficial and mistaken understanding of the facts,
that the claims were time-barred. As will be shown,
the allegations are plainly not time-barred.
Accordingly, the appellate court erred in failing to
reach the merits of the case.
Review by this Court is necessary and
warranted to ensure review, on the merits, of
important questions as to whether the County of
Mariposa, acting under color of law, has routinely
violated the civil rights of its residents, as guaranteed
by the Fourth, Fifth and Fourteenth Amendments of
the U.S. Constitution, by flagrantly ignoring statutory
requirements and by engaging in an intentional
scheme to circumvent the provisions of the SMA,
thereby depriving the plaintiffs, and many other
residents of Mariposa County, of the protections which
that Act was designed to provide.

12
ARGUMENT
A.

It is undisputed that the Civil Right claim
is subject to a two-year statute of
limitations and that it is an abuse of
discretion to deny leave to amend if there
is any reasonable possibility that a the
defect in the complaint can be cured by
amendment

It is undisputed that a section 1983 claim is
governed by the forum state’s statute of limitations for
personal injury claims which, in California, is two
years. (Action Apartment Assn. v. Santa Monica Rent
Control Opinion Bd. (9th Cir. 2007) 509 F.3d 1020,
1026; see McDougal v. County of Imperial (9th Cir.
1991) 942 F.2d 668, 673-674). The statute commences
to run when the plaintiff learns, or should have
learned, the facts essential to his claim. When the
plaintiff has notice or information of circumstances to
put a reasonable person on inquiry, or has the
opportunity to obtain knowledge from sources open to
his investigation, the statute commences to run.
(Sanchez v. South Hoover Hospital (1976) 18 Cal.3d 93,
101.)
If there is a reasonable possibility that the
defect in a complaint can be cured by amendment, it is
an abuse of discretion to sustain a demurrer without
leave to amend. (Hendy v. Losse (1991) 54 Cal.3d 723,
742).

13
B.

Elements of a section 1983 civil rights
violation claim
42 U.S.C. 1983 provides, in pertinent part:
Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, of any State or Territory or the
District of Columbia, subjects, or causes
to be subjected, any citizen of the United
States or other person within the
jurisdiction thereof to the deprivation of
any rights, privileges, or immunities
secured by the Constitution and laws,
shall be liable to the party injured in an
action at law, suit in equity, or other
proper proceeding for redress . . .

As this Court held in Dennis v. Higgins (1991)
498 U.S. 439, 443:
A broad construction of § 1983 is
compelled by the statutory language,
which speaks of deprivations of “any
rights, privileges, or immunities secured
by the Constitution and laws.” [Emph.
added.] Accordingly, we have “repeatedly
held that the coverage of [§ 1983] must
be broadly construed.” [citations] The
legislative history of the section also
stresses that as a remedial statute, it
should be “‘liberally and beneficently
construed.’” [citations]

14
To state a claim under § 1983, a plaintiff must
allege the violation of any right, privilege or immunity
secured by the Constitution and laws of the United
States, and must show that the alleged deprivation
was committed by a person acting under color of state
law. (West v. Atkins (1988) 487 U.S. 42, 48).
C.

Relevant provisions of the Subdivision
Map Act and the law interpreting it

California’s Subdivision Map Act (Govt. Code §§
66410-66499.38) was enacted to provide a relatively
uniform way that division of property would be
regulated within the State of California. Section 66411
of the SMA delegated the responsibility of
“[R]egulation and control of the design and
improvement of subdivisions…” to the “…legislative
bodies of local agencies” which were to “… regulate
and control subdivisions for which this division
requires a tentative and final or parcel map. Such
ordinance shall specifically provide for proper grading
and erosion control, including the prevention of
sedimentation or damage to off-site property.”
Mariposa County has provided its regulation and
control of subdivisions in Mariposa County Code
(County Code) Title 16.
Government Code section 66440 of the of the
SMA requires the legislative body, (in this instance,
the Mariposa County Board of Supervisors), to either
“accept, accept subject to improvements, or reject any
Offer of Dedication” at the time the final map is
approved and to record this decision on the final map
prior to or concurrent with the filing of the final parcel
map.

15
Government Code section 66447 requires that
all dedications, or offers of dedication, must be noticed
by certificate on the parcel map, or separate
instrument, and must be recorded concurrently with,
or prior to the parcel map being filed for record.
In this case, it is undisputed that the County did
not “accept, accept subject to improvements, or reject”
either the Bishop or the Huntley offers of dedication at
the time their final maps were approved and it did not
record any such decision on the final maps prior to or
concurrent with the filing of the final parcel maps as
required by Government Code sections 66440. Nor
were the offers of dedication noticed by certificate on
the parcel maps, or separate instrument, recorded
concurrently with, or prior to the parcel map being
filed for record as required by Government Code
section 66447. Significantly, although the Appellants’
Opening Brief discussed these statutory provisions in
detail, the County did not even mention them in its
Respondent’s Brief. Instead of addressing these
pertinent statutory requirements head-on, the County
ignored them as if they do not exist and cited to wholly
inapplicable authorities which hold that where an offer
of dedication is “rejected” at the time the final map is
approved, it remains open and may be accepted later.
But, these authorities are inapplicable because in this
case, the offers of dedication were never “rejected.”
1.

Under Government Code section
66477.2, an offer of dedication
remains open for later acceptance
only after it has been affirmatively
rejected as contemplated in section
66440

16
In support of its contention that it could accept
the 1980 offers of dedication in 1991, the County relies
on Government Code section 66477.2, which provides,
in pertinent part:
(a) If at the time the final map is
approved, any streets, paths, alleys,
public utility easements, . . . and similar
items, which directly benefit the
residents of a subdivision, . . . are
rejected, subject to Section 771.010 of
the Code of Civil Procedure, the offer of
dedication shall remain open and the
legislative body may by resolution at any
later date, and without further action by
the subdivider, rescind its action and
accept and open the streets, paths, alleys,
. . . and similar items, which directly
benefit the residents of a subdivision, . .
.for public use, which acceptance shall be
recorded in the office of the county
recorder. [emph. added].
But the language of this section must be
construed according to its plain language and within
the context of the entire statutory scheme. The section
provides that where an offer of dedication has been
“rejected” in an approved final map, that offer
remains open and the legislative body may, at a later
date, without further action by the
subdivider,“rescind its action” and accept the offer.
The Legislature’s choice of words in section 66477.2 is
not accidental. Taken within the context of the entire
statutory scheme, the word “reject” as used in section

17
66477.2 must have the same meaning as in sections
66440 and 66477.1. Under well established principles
of statutory construction, interrelated provisions must
be construed together and harmonized if possible.
(Steilberg v. Lackner (1977) 69 Cal.App.3d 780, 785.)
When the same word or phrase is used, it should be
given the same meaning in the related part of the law.
(Gruschka v. Unemployment Ins. Appeals Bd. (1985)
169 Cal.App.3d 789, 792).
The word “reject” in all three statutes has the
same meaning; it does not contemplate a passive, nonaction; rather, it contemplates a direct, affirmative
action–an affirmative choice–made by body and
memorialized and recorded on the final approved map.
This interpretation is bolstered by the Legislature’s
directive in section 66477.2, that where an offer has
been “rejected” the body can later “rescind its action”
and accept the offer.
According to Merriam-Webster, “rescind” means
to “take back, cancel; to abrogate (a contract) and
restore the parties to the positions they would have
occupied had there been no contract; to make void by
action of the enacting authority or a superior authority
: Repeal.”1 Thus, only an “action” can be “taken back”
or “cancelled” or “abrogated” or “rescinded”.
Conversely, a passive, non-action cannot be
“rescinded.” The word “action” used in the phrase
“rescind its action” also correlates with section
66477.1, which requires the legislative body to “certify
or state on the map the action by the legislative body”
(referring to its choice to either “accept, accept subject
1

https://www.merriam-webster.com/dictionary/rescind?utm_campaign
=sd&utm_medium=serp&utm_source =jsonld

18
to improvement, or reject any offer of dedication”).
In this case, as noted, the County took no
“action” with respect to the Bishop and Huntley offers
of dedication. It did not “accept” them, it did not
“accept subject to improvement” and, critically, it did
not “reject” them. Accordingly, applying the plain
language of the statutes, since the County did not
“reject” the offers, there is no “action” to “rescind” and
section 66477.2 simply does not apply. So in short, the
County relies on a clearly inapplicable statute while
utterly ignoring the prerequisite statutes.
The County also heavily relies on language in
the Bishop and Huntley offers of dedication which
states the offers “shall remain open” until either
accepted or rejected by the County in writing. But this
statement cannot supersede the applicable statutes,
which provide that the offer must be “accepted,
accepted subject to improvement or rejected” at the
time the parcel map is approved, and only if it is
“rejected” may the body later “rescind its action” and
accept the dedication.
2.

The case law relied on by the County
is inapplicable, as it addresses
situations unlike this one, where the
offer of dedication was rejected

The County cites a number of cases which, it
contends, hold that the refusal to accept an offer of
dedication constitutes a rejection. But, in each of these
cases, there was an affirmative action by the body
which expressly rejected all or part of the offer. In no
case was there a “passive rejection” such as we have
here, in which the County took no action whatsoever

19
with respect to the offers of dedication.
For example, in Stump v. Cornell Const. Co.
(1946) 29 Cal.2d 448, 451-452, the Los Angeles City
Council considered a tract map which included an offer
of dedication. The council accepted, “ . . . on behalf of
the public all the streets, roads, alleys, highways and
easements shown on said map and therein offered for
dedication, except those strips marked 'future
street' and 'future alley'. ...” Thereafter, the City
Council adopted a resolution accepting the twenty-foot
strip as a public alley. Plaintiff’s brought suit,
contending that there never was a completed
dedication. The Supreme Court noted that the SMA
(which was then codified as Bus. & Prof. Code, §§
11500 et seq.), required that upon approval of the final
map, the governing body “shall at that time also accept
or reject any or all offers of dedication ...,” and that the
clerk shall certify on the map the acceptance or
rejection by the public (§ 13(c), see Bus. & Prof. Code,
§ 11591). It also noted that Business & Professions
Code, § 11616 provided: “If at the time the final map is
approved any streets are rejected the offer of
dedication shall be deemed to remain open and the
governing body may by resolution at any later date,
and without further action by the subdivider, rescind
its action and accept and open said streets for public
use, which acceptance shall be recorded in the office of
the county recorder.”
On the facts before it, the Supreme Court held
that the city's prior acceptance of the offer of
dedication which specifically excepted “those strips
marked 'future street' and 'future alley” constituted a
rejection by the city of the offer to dedicate the “future
alley.” By the terms of the statute the rejection was

20
not final, the offer was deemed to remain open, and the
city was authorized to rescind the rejection and accept
the offer of dedication at any later date.
Thus, in Stump, the City affirmatively rejected
a portion of the dedication. Pursuant to the clear
language of Business & Professions Code section 11616
(which is the same as current Govt. Code section
66477.2), the City was authorized to “rescind its
action” and accept the previously rejected offer. Here,
of course, the County of Mariposa never “rejected” the
offer; it took no “action” at all. It cannot “rescind”
action it never took in the first place.
A similar scenario was presented in Sacramento
v. Jensen (1956) 146 Cal.App.2d 114, 117, in which city
supervisors approved a subdivision map but expressly
rejected its offer of dedication: “The Board of
Supervisors . . . do hereby approve this map of
'VICTORY ACRES' and do not hereby accept on
behalf of the public the dedications herein
mentioned and shown.” [emph. added].
Thereafter, however, the Board of Supervisors
adopted a resolution to the effect that the streets
appearing on the recorded map were all accepted for
public highways of the county of Sacramento.” Years
later, when a dispute arose as to the ownership of an
easement within the dedication, the court found the
statute at the time required that the offeree either
accept or reject an offer of dedication at the time the
map was approved, and the “refusal to accept
constituted a rejection.” (citing Stump v. Cornell Const.
Co., supra, 29 Cal.2d at 451). The Jensen court noted
that, at the time the map was recorded, “the offer to
dedicate appearing on the face of the map had been
rejected.” [emph. added].)

21
Accordingly, unlike this case, in which the
County took no affirmative action and did not elect or
record a decision to accept or reject the offer of
dedication, in Jensen, the Board did, affirmatively
reject the dedication.
The same situation existed in County of Orange
v. Cole (1950) 96 Cal.App.2d 163, 170-171 and
Ratchford v. County of Sonoma (1972) 22 Cal.App.3d
1056, 1071-1072. In both cases, an offer of dedication
was expressly rejected by county officials, but later
accepted.
Thus, in every single case cited by the County in
which section 66477.2 applied to permit a subsequent
acceptance of a previously rejected dedication, the
previous “rejection” had been an affirmative action
which was written, recorded and certified on the final
map at the time of the maps approval, consistent with
Government Code sections 66440 and 66477.1.
Conversely, the County has not cited a single case, nor
have petitioners found one, which holds, in
contravention of the clear statutory language, that an
offer of dedication remains open indefinitely where
there has never been a prior action by the governing
body which rejected the original offer of dedication.
The statutory language is clear and applied
consistently in the case law: There must be a formal
rejection of an offer of dedication to trigger section
66477.2. Because no such rejection occurred with
respect to the Bishop and Huntley offers, the County
was without legal authority to retroactively “accept”
the offers eleven years after the offers were made and
the subdivided parcels resold.

22
Since there was never a valid acceptance of the
Bishop or Huntley offers of dedication of easements,
the County’s entries onto plaintiffs’ property in and
after May 2015, its claim to portions of that property,
and its seizure of plaintiffs’ personal property,
constitute a violation of plaintiffs’ right to due process
and right to be free of unreasonable search and
seizures and a violation of their civil rights under 42
U.S.C. 1983.
D.

The Sohn’s first proposed amendment is
not barred by the statute of limitations
because the violation did not occur until
May 2015, and in any event, the Sohns did
not have actual or constructive notice that
the County had not validly accepted the
easement until 2015

Plaintiffs seek to amend their complaint to
allege that the County deprived them of their rights
under 42 U.S.C. 1983 when, on May 26, 2015, its
agents illegally entered onto plaintiffs’ real property
and seized their personal property based on a
purported public easement which did not, in fact, exist.
The Court of Appeal concluded that the claim is
barred by the two-year statute of limitations, finding
“because the Sohns had constructive notice of the
Bishop and Huntley maps [which included offers of
dedication of the easement] well before 2004, more
than 12 years before they filed their original
complaint, they cannot claim ignorance of what they
have set forth as the “‘true state of facts.’” (App. infra,
App 30). But the court’s factual analysis misconstrues,
omits or disregards relevant facts.

23
1.

The violation did not occur until
May of 2015

First, and most simply stated, the Court of
Appeal failed to recognize that the violation (and thus,
the damage) which gives rise to the cause of action did
not occur until May 26, 2015, less than two years
before the filing of the Sohns’ complaint. Thus,
regardless of whether or not the Sohns had earlier
knowledge of the County’s purported “acceptance” of
the easement, no cause of action accrued until the
County’s trespass onto their property.
[A] substantive due process violation is
complete as soon as the government
action occurs.” [citation] . . . “[t]he mere
existence of a statute, which may or may
not ever be applied to plaintiffs, is not
sufficient to create a case or controversy
within the meaning of Article III.”
[citation]. (Action Apartment Ass'n, Inc.
v. Santa Monica Rent Control Bd., supra,
509 F.3d at 1027-1028).
Put another way, it is not the existence of the
statute, but its violation, which gives rise to the case
or controversy within the meaning of Article III.
(Ibid.).
Here, since the violation did not happen until
May of 2015, the complaint alleging that violation,
which was filed November 4, 2016, was timely.

24
2.

The facts as alleged, which must be
deemed true for purposes of
demurrer, establish that the Sohns
had no actual or constructive notice
of the County’s invalid acceptance of
the easement, and no reason to
investigate it, until 2015

Secondly, the appellate court failed to recognize
that although the Sohns had notice of the Bishop and
Huntley maps when they purchased their property in
1999, those maps did not and could not give the Sohn’s
actual or constructive notice of the County’s purported
“acceptance” of the offers of dedication eleven years
later, in 1991. The parcel maps themselves make no
reference to the subsequent 1991 “acceptance”.
Further, the Sohns can and will allege that the title
search conducted at the time they purchased the
property did not disclose any notice of the County’s
purported 1991 “acceptance” of the 1980 offers of
dedication on the Huntley and Bishop maps.
Plaintiffs can and will allege that they first
obtained a copy of Document 911744, (the document
which purported to accept the Bishop/Huntley offers),
in or about February of 2016. Moreover, the Sohns had
no reason to investigate the validity of the County’s
acceptance until 2015. In 2004, the County
represented to the Sohns, in writing, that the road
easement “was created by a recorded parcel map
(recorded in Book 17 of Parcel Maps, at Page 10)” (this
refers to the Bishop map), and that “[t]he offer of
dedication was accepted by Mariposa County”. The
Sohn’s had no reason to doubt this representation, and
no reason to investigate it. It was not until 2015,

25
during the course of the underlying litigation with
their neighbors in this case, that the Sohns had reason
to investigate the specifics of the easement and
learned, for the first time, that in fact, there never was
a valid easement. Their complaint for violations of
their civil rights based on the invalid easement was
filed on November 4, 2016, well within the two year
limitation period.2
E.

The Sohn’s second proposed amendment is
not barred by the statute of limitations
because they did not have actual or
constructive notice of the alleged
conspiracy until 2016

The Sohns also seek to amend their complaint to
allege that County defendants conspired with Bishop,
Huntley, and other developers and/or subdividers

2

Further, if granted leave to amend, plaintiffs will allege
that on July 24, 2018, during a meeting with the Mariposa
County Planning Commissioner, they learned of four additional
documents filed on April 5, 1991, (at the same time as
Document #911744), which also purport to retroactively
“accept” other road rights-of-way which may have been offered
for dedication between 1955 and 1990, but not acted upon. (i.e.
Document #s 911743, 911745, 911746 and 911747). This is
further evidence that Mariposa County has repeatedly violated
the provisions of the SMA and may have been knowingly
engaged in active fraud against its citizens. This new evidence
is also consistent with a statement made in correspondence
from defendant Tony Stobbe, the County Director of Public
Works, obtained by plaintiffs in response to a March 11, 2016
deposition subpoena, stating that “we are opening a can of
worms with over 500 miles of other roads that are in a
similar situation”.

26
between 1977 and 1987 to knowingly and intentionally
circumvent the Subdivision Map Act by exploiting the
“minor subdivision” exception under Government Code
section 66412.5 as to many or all of the remaining 173
Minor Subdivision Parcels identified in Document
#911744.
The appellate court found that this allegation is
barred by the two year statute of limitation because
the grant deed by which the Sohns acquired their
property referenced the Huntley map, and the Huntley
map, in turn, referenced, the Bishop map. Thus, this
court concluded, “on even a cursory examination, the
Bishop and Huntley maps openly display how Bishop’s
original property was apportioned into seven parcels of
roughly similar size.” (App. infra, App 29).
This is true, but the court failed to recognize
that the knowledge that Bishop’s original property was
subdivided into seven parcels by two different
owner/developers over a short period of time did
nothing to provide actual or constructive notice to the
Sohns that this same one-two tactic played out dozens
of times over the course of ten years. That this
happened on one occasion did not raise, and should not
have raised, any suspicion of wrongdoing. But when
the same sequence of events happened over and over
and over again, each time with County approval, the
sheer number of incidents strongly suggests that this
was a knowing and intentional scheme to circumvent
the SMA. Nothing in the Bishop/Huntley maps,
standing alone, would have led the Sohns, or any
reasonable person, to suspect that the seemingly
ordinary approval of these two subdivisions was part
of a much larger, ongoing fraudulent scheme to evade
the requirements of the SMA.

27
The Sohns can and will allege that it was not
until December 23, 2016, when they received from the
Clerk of the Board of Supervisors a response to their
County Public Records Act request, that they obtained
documents suggesting that the Board of Supervisors
had purported to retroactively “accept,” in 1991, the
1980 offers of dedication on the Bishop and Huntley
maps, as well as dozens of other parcel maps which
included similar “4 x 4" subdivisions. This was the first
notice the Sohns had that the County’s approvals of
two independent, but close-in-time subdivisions for
Huntley and Bishop in 1980, were actually part of a
much larger ongoing fraudulent scheme to circumvent
the SMA. Given an opportunity to amend, the Sohns
will also offer an additional allegations and supporting
evidence: for example, in documents obtained in
response to a 2016 subpoena, they discovered
correspondence from defendant Tony Stobbe, the
County Director of Public Works, stating that “we are
opening a can of worms with over 500 miles of
other roads that are in a similar situation”.
CONCLUSION
Plaintiffs’ complaint alleging violations of their
civil rights under 42 U.S.C 1983 was filed less than
two years after the County’s entry onto their property
in May of 2015. This entry was based on the County’s
invalid interpretation of the statutory provisions of the
Subdivision Map Act, which in turn resulted in the
County’s invalid assertion of an easement on plaintiffs’
property.

28
Plaintiffs’ complaint was also filed less than two
years after they had notice, actual or constructive, of
evidence which strongly suggests that the County was
engaged in a sweeping and ongoing scheme with
developers and subdividers, to circumvent the
statutory requirements of the Subdivision Map Act, to
the detriment of plaintiffs and many other residents of
Mariposa County.
Review by this court is warranted because the
issues presented are of significant public importance
and interest. The alleged conduct by the County of
Mariposa involves serious violations of due process
and unreasonable seizure of property under color of
law, which have been ongoing for many years and
which negatively impact not only these plaintiffs, but
potentially thousands of other residents of Mariposa
County.
For all the foregoing reasons, plaintiffs
respectfully request this court to grant certiorari.
Respectfully submitted,
Janice R. Mazur
Counsel of Record
MAZUR & MAZUR, LLC
13465 Camino Canada
No. 106-103
El Cajon, California 92021
(800) 383-5002
appealslawyer@aol.com
Counsel for Petitioners
Daniel and Juliet Sohn

29

APPENDIX

App 1
William W. Abbott (SBN 83976)
Glen C. Hansen (SBN 166923)
Abbott & Kindermann, Inc.
2100 21st Street
Sacramento, California 95818
Telephone: (916) 456-9595
Facsimile: (916) 456-9599
E-mail: wabbott@aklandlaw.com
E-mail: ghansen@aklandlaw.com

FILED
Mariposa
Superior
Court
Sep 15 2017
/s/ [illegible]
Court Clerk

Oliver W. Wanger #40331
Nicolas R. Cardella #304151
WANGER JONES HELSLEY PC
265 E. River Park Circle, Suite 310
Fresno, California 93720
Telephone: (559) 233-4800
Facsimile: (559) 233-9330
E-mail: owanger@wjhattorneys.com
E-mail: ncardella@wjhattorneys.com
Attorneys for: Defendants County of Mariposa
County, Mariposa County Board of
Supervisors, Mariposa County
Department of Public Works, Tony
Stobbe, Gary Taylor, Russell Marks,
Mike Ziegenfuss, Douglas A.
Binnewiess, Rudy Mirelez
SUPERIOR COURT FOR THE STATE OF
CALIFORNIA
COUNTY OF MARIPOSA

App 2
In The Matter of

)
)
DANIEL SOHN and JULIET )
SOHN,
) Case No. 10841
) [PROPOSED]
Plaintiffs,
) ORDER RE:
) COUNTY
v.
) DEFENDANTS’
) GENERAL AND
COUNTY OF MARIPOSA,
) SPECIAL
COUNTY, MARIPOSA
) DEMURRERS
COUNTY BOARD OF
)TO PLAINTIFFS’
SUPERVISORS, MARIPOSA ) FIRST AMENDED
COUNTY DEPARTMENT OF ) COMPLAINT
PUBLIC WORKS, AND ALL
) AND MOTION TO
PERSONS KNOWN,
) STRIKE
CLAIMING ANY LEGAL OR ) PORTIONS OF
EQUITABLE RIGHT, TITLE, ) PLAINTIFFS’
ESTATE, LIEN, OR INTEREST) FIRST AMENDED
IN THE PROPERTY
) COMPLAINT
DESCRIBED IN THE
)
COMPLAINT ADVERSE TO
)
PLAINTIFFS’ TITLE OR ANY )
CLOUD ON PLAINTIFF’S’
)
TITLE THERETO and DOES 1 )
through 50,
)
)
Defendants.
)
_____________________________ )
The general and special demurrers of
Defendants County of Mariposa, County, Mariposa
County Board of Supervisors, Mariposa County
Department of Public Works, Tony Stobbe, Gary

App 3
Taylor, Russell Marks, Mike Ziegenfuss, Douglas A.
Binnewiess and Rudy Mirelez (collectively, “County
Defendants”) to the First Amended Complaint
(“FAC”) filed by Plaintiffs Daniel Sohn and Juliet
Sohn (collectively “Plaintiffs”) came on regularly for
hearing before the undersigned on September 15,
2017. All parties were represented by counsel.
After consideration of the briefs, supporting
documents, argument of counsel, and all other
matters presented to the Court, it is recognized that
Plaintiffs have previously amended their complaint
and good cause appearing therefor,
IT IS ORDERED THAT:
1. County Defendants’ general demurrer to
the entire FAC against County Defendants is
SUSTAINED WITHOUT LEAVE TO AMEND
because all causes of action against County
Defendants alleged therein fail to constitute a cause
of action.
2. County Defendants’ general demurrer to
the first cause of action of the FAC for declaratory
relief against County of Mariposa is SUSTAINED
WITHOUT LEAVE TO AMEND because the claim
fails to state facts sufficient to constitute a cause of
action.
3. County defendants’ general demurrer to
the second cause of action of the FAC for quiet title
against County of Mariposa is SUSTAINED
WITHOUT LEAVE TO AMEND because the claim
fails to state facts sufficient to constitute a cause of
action, and because there is another action pending
between the same parties on the same cause of
action.

App 4
4. County defendants’ general demurrer to
the third cause of action of the FAC for violation of
civil rights against County of Mariposa, Mariposa
County Department of Public Works, Tony Stobbe,
Gary Taylor, Russell Marks and Mike Ziegenfuss is
SUSTAINED WITHOUT LEAVE TO AMEND
because the claim fails to state facts sufficient to
constitute a cause of action.
5. County defendants’ special demurrer to the
third cause of action of the FAC for violation of civil
rights against County of Mariposa, Mariposa County
Department of Public Works, Tony Stobbe, Gary
Taylor, Russell Marks and Mike Ziegenfuss is
SUSTAINED WITHOUT LEAVE TO AMEND
because the claim is fatally uncertain.
6. County defendants’ general demurrer to
the fourth cause of action of the FAC for violation of
civil rights against County of Mariposa, Douglas
Binnewiess, and Rudy Mirelez is SUSTAINED
WITHOUT LEAVE TO AMEND because the claim
fails to state facts sufficient to constitute a cause of
action.
7. County defendants’ general demurrer to
the claim for punitive damages under 42 U.S.C.
§1983 alleged in the third cause of action of the FAC
is SUSTAINED as to County of Mariposa, Mariposa
County Department of Public Works, Tony Stobbe,
Gary Taylor, Russell Marks and Mike Ziegenfuss
because the County of Mariposa, and its officers sued
in their official capacities in the course and scope of
their public employment, are immune from punitive
damages under 42 U.S.C. §1983.

App 5
8. County defendants’ general demurrer to
the claim for punitive damages under 42 U.S.C.
§1983 alleged in the fourth cause of action of the
FAC is SUSTAINED as to County of Mariposa,
Douglas Binnewiess, and Rudy Mirelez because the
County of Mariposa, and its officers sued in their
official capacities in the course and scope of their
public employment, are immune from punitive
damages under 42 U.S.C. §1983.
9. County Defendants’ motion to strike
portions of Plaintiffs’ FAC is GRANTED as to
paragraph 39, line 22's reference to “punitive
damages”; paragraph 40, line 28's reference to
“punitive damages”; paragraph 44, line 28's
reference to “punitive damages”; paragraph 45, line
6's reference to “punitive damages”; paragraph 7 of
the Prayer for Relief; and paragraph 12 of the Prayer
for Relief because the allegations in the FAC do not
support a claim for punitive damages.
[Interlineated by hand] ALL REQUESTS FOR
JUDICIAL NOTICE ARE GRANTED LCN
Dated: September 14, 2017 By: /s/ Glen W. Hansen
William W. Abbott
Glen C. Hansen
Attorneys for
Defendants
County of Mariposa
County, Mariposa
County Board of
Supervisors,
Mariposa County
Department of
Public Works, Tony

App 6
Stobbe, Gary
Taylor, Russell
Marks, Mike
Ziegenfuss, Douglas
A. Binnewiess, Rudy
Mirelez
Dated: September 14, 2017 By: /s/ Oliver Wanger
Oliver W. Wanger
Nicolas R. Cardella
Attorneys for
Defendants
County of Mariposa
County, Mariposa
County Board of
Supervisors,
Mariposa County
Department of
Public Works, Tony
Stobbe, Gary
Taylor, Russell
Marks, Mike
Ziegenfuss, Douglas
A. Binnewiess, Rudy
Mirelez
IT IS SO ORDERED:
Dated: September 15, 2017

/s/Leslie C. Nichols
Judge of the
Mariposa County
Superior Court

App 7
FILED
MARIPOSA SUPERIOR COURT
SEP 15 2017
/s/ illegible
COURT CLERK
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF MARIPOSA
DANIEL SOHN and JULIET SOHN, Plaintiffs
v.
COUNTY OF MARIPOSA et al.
Case No. 10841
JUDGMENT
The court today having granted demurrers to
plaintiff’s first amended complaint without leave to
amend, and good cause appearing:
Judgment is hereby entered in favor of all demurring
defendants and against plaintiffs Daniel and Juliet
Sohn. The defendants in whose favor judgment is
entered are: County of Mariposa, Mariposa County
Board of Supervisors, Mariposa County Department
of Public Works, Tony Stobbe, Gary Taylor, Russell
Marks, Mike Ziegenfuss, Douglas A. Binnewiess,
Rudy Mirelez, Dana Hall, Michele Minniear, Fred
and Muriel Temps, Roger and Laurel Siebecker, and
Tom and Carol Schmidt. Costs shall be determined
in accordance with law.

App 8

September 15, 2017

/s/ Leslie C. Nichols
Leslie C. Nichols
Judge of the Superior
Court

App 9

Filed 3/18/20 Sohn v. County of Mariposa CA
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or
relying on opinions not certified for
publication or ordered published, except as
specified by rule 8.1115(b). This opinion has
not been certified for publication or ordered
published for purposes of rule 8.1115.
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
FIFTH APPELLATE DISTRICT
DANIEL SOHN et al

)
) F076677
Plaintiffs and Appellants,) (Super. Ct. No.
) 10841)
v.
)
) OPINION
COUNTY OF MARIPOSA,
)
)
Defendants and
)
Respondents.
)
_____________________________ )
APPEAL from a judgment of the Superior
Court of Mariposa County. Leslie C. Nichols, Judge.

App 10
(Retired Judge of the Santa Clara Sup. Ct. assigned
by the Chief Justice pursuant to art. VI, § 6 of the
Cal. Const.)
Mazur & Mazur and Janice R. Mazur for
Plaintiffs and Appellants.
Abbott & Kindermann, William W. Abbott
and Glen C. Hansen for Defendants and
Respondents.
Plaintiffs Daniel and Juliet Sohn appeal from
a September 15, 2017 judgment of dismissal
following the sustention of a demurrer without leave
to amend their complaint. In said complaint, citing
the federal Civil Rights Act of 1871 (42 U.S.C.
§ 1983), the Sohns alleged they had been deprived of
their constitutional rights by defendants County of
Mariposa; Mariposa County Department of Public
Works; Tony Stobbe, in his former official capacity
as director of public works; Gary Taylor, in his
former official capacity as deputy director of public
works; Russell Marks, in his official capacity as
public works surveyor; and Mike Ziegenfuss, in his
former official capacity as public works road
foreman.1

1

Hereafter, where appropriate and for the sake of

brevity, we refer to title 42 United States Code section 1983 as
“section 1983,” defendant County of Mariposa as “County,” and
defendants en bloc as “County defendants.”
Defendants Mariposa County Board of Supervisors,
Douglas A. Binnewiess, Rudy Mirelez, Dana Hall, Michele
Minniear, Fred and Muriel Temps, Roger and Laurel Siebecker,
and Tom and Carol Schmidt are not parties to this appeal.

App 11
On appeal, the Sohns acknowledge the
complaint failed to state facts sufficient to constitute
a section 1983 claim. However, they argue the
complaint can be amended to cure this defect. The
Sohns’ proposed amendments to their complaint are
barred by the statute of limitations. Accordingly, we
find the superior court did not abuse its discretion
when it sustained County defendants’ demurrer
without leave to amend. We affirm the judgment.
BACKGROUND2
In 1980, Gary Bishop subdivided a contiguous
piece of property into four parcels lettered A through
D. The January 21, 1980 “PARCEL MAP [¶] FOR
[¶] GARY BISHOP,” recorded on page 10 of Book 17
of County’s Parcel Maps, showed Parcels A, B, and C
each comprised between 5.2 and 5.6 acres. Parcel D,
on the other hand, comprised 21.4 acres. The Bishop
map also contained the following language:
“NOTE: [¶] ALL EASEMENTS
SHOWN ON THIS MAP ARE 60’ WIDE
NON-EXCLUSIVE EASEMENTS FOR
PUBLIC USE AND PUBLIC
UTILITIES: OFFERED FOR
DEDICATION BY THIS MAP; SEE
OWNERS CERTIFICATE . . . .”
2

“Because this appeal arises from a dismissal following a

demurrer, we rely on [the operative] complaint and documents
the court judicially noticed for a summary of the factual
background.” (Gordon v. Law Offices of Aguirre & Meyer (1999)
70 Cal.App.4th 972, 975, fn. 2; see Crowley v. Katleman (1994)
8 Cal.4th 666, 672 & fn. 2.)

App 12

“OWNER[:] [¶] The UNDERSIGNED,
being the parties having a record title
interest in the land as plotted by this
map, hereby consent to the preparation
and recordation of this map, and offer
for dedication to . . . County all
easements as shown on this map and so
marked as offered for dedication. This
offer of dedication to . . . County shall
remain open until either accepted or
rejected, in writing, by . . . County.”
Later that year, Dennis Huntley acquired the
area identified as Parcel D on the Bishop map and
subdivided it into four parcels lettered A through D.
The June 4, 1980 “PARCEL MAP [¶] FOR [¶]
DENNIS HUNTLEY,” recorded on page 24 of Book
17 of County’s Parcel Maps, showed Parcels A, B, C,
and D each comprised between 5.1 and 6.1 acres.
Parcels A and D bordered land labeled “(BISHOP).”
The Huntley map also contained the following
language:
“60’ NON-EXCLUSIVE P.U. &
ACCESS EASEMENT BY PARCEL
MAP BOOK 17 PAGE 10.”
“60’ WIDE NON-EXCLUSIVE P.U. &
ACCESS EASEMENT OFFERED FOR
DEDICATION BY THIS MAP.”
“OWNER[:] [¶] THE UNDERSIGNED,
BEING THE PARTIES HAVING A RECORD

App 13
TITLE INTEREST IN THE LAND AS
PLOTTED BY THIS MAP, HEREBY
CONSENT TO THE PREPARATION AND
RECORDATION OF THIS MAP, AND OFFER
FOR DEDICATION TO . . . COUNTY ALL
EASEMENTS AS SHOWN ON THIS MAP
AND SO MARKED AS OFFERED FOR
DEDICATION. THESE OFFERS OF
DEDICATION TO . . . COUNTY SHALL
REMAIN OPEN UNTIL EITHER ACCEPTED
OR REJECTED, IN WRITING[,] BY . . .
COUNTY.”
On April 5, 1991, County recorded a document
numbered 911744 and titled “ACCEPTANCE OF
DEDICATION.” It read in part:
“This is to certify that the County
Engineer hereby accepts on behalf of
the public, the Dedication of Easements
along the non-County maintained roads
as shown on: [¶] . . . [¶]
“that certain ‘Parcel Map for GARY
BISHOP’, recorded JANUARY 21, 1980
in Book 17 of Parcel Maps at Page 10,
Mariposa County Records; and marked
as offered for dedication. [¶] . . . [¶]
“that certain ‘Parcel Map for DENNIS
HUNTLEY’, recorded APRIL 6, 1980 in
Book 17 of Parcel Maps at Page 24,
Mariposa County Records; and marked
as offered for dedication.”

App 14

On June 28, 1999, via grant deed, the Sohns
acquired the area described as “Parcel A as shown on
the Parcel Map for Dennis Huntley filed June 4,
1980 in Book 17 of Parcel Maps at Page 24,
Mariposa County Records.” The strip of land offered
for dedication by the Bishop and Huntley maps lies
in part on this property. At some point, Vista
Grande Way, a road approximately 20 feet wide, was
constructed on the strip.
In a letter dated May 28, 2004, County
responded to the Sohns’ “request for an investigation
. . . regarding a fence that has been constructed
within the access easement for Vista Grande Way.”
The letter read in part:
“1.
Property owners . . . Fredric and
Muriel Temps . . . installed fencing,
landscaping, and an address structure
in a road easement . . . for Vista Grande
Way. . . .
“2.
The road easement was created
by a recorded parcel map (recorded in
Book 17 of Parcel Maps at Page 10) and
offered for dedication for public access,
utilities and maintenance.
“3.
The offer of dedication was
accepted by . . . County for public access
and public utilities, but rejected for
public maintenance. [¶] . . . [¶]

App 15
“If a dedicated easement is not accepted for
public maintenance (as in this case),
maintenance is the responsibility of the
property owners who use the easement. [¶]
. . . [¶]
“. . . [C]ounty is not involved with
privately maintained roads once a land
division parcel map is approved. . . . In
the past, . . . [C]ounty has . . . not been
involved with regulating fencing in
privately maintained easements. Thus,
this is a civil matter between property
owners and is based upon the fact that
. . . [C]ounty is not involved and has no
permit authority for fencing in privately
maintained easements. . . .”
In a letter to Stobbe dated May 1, 2015, counsel for
the Sohns—who were named as defendants in an
interference-with-easement lawsuit filed on April 15,
2015 — remarked:
“There appears to be some
confusion . . . in that as far as I can see,
Vista Grande Way is not covered by a
public easement. In referring to the
Parcel Map for Dennis Hu[n]tley,
recorded in Mariposa County Recorder’s
Office, at Book 17, page 24, that Parcel
Map does refer to a 60’ non-exclusive
public utility and access easement, but
the term public easement is not used.

App 16
Is there some other instrument upon
which you are basing your contention
that it is a public easement and, thus,
under your jurisdiction?”
Shortly thereafter, in a letter to the Sohns’ counsel,
Stobbe replied:
“Vista Grande [W]ay is clearly covered
by a public easement. Your letter
references Parcel Map Book 17 Page 24,
which covers the end portion of Vista
Grande, and notes the easement as a
‘60[-foot] wide non-exclusive P.U. &
access easement offered for dedication
by this map.” You may have overlooked
that just above that note is another,
pointing to the rest of Vista Grande,
which states ‘60[-foot] non-exclusive
P.U. & access easement by Parcel Map
Book 17 Page 10.’ Parcel Map Book 17
Page 10 contains the following note ‘All
easements shown on this map are 60[foot] wide non-exclusive easements for
public use and public utilities.’
“The posts and reflectors [installed by
the Sohns] are a traffic hazard and are
within both the easement and the
existing roadway. To be clear: all
posts, signs, reflectors, and any other
obstructions within the boundaries of
the easement are to be removed by May
26 or they will be removed by . . .

App 17
County. This notice is being served on
you as attorney for Mr. and Mrs. Sohn
pursuant to Mariposa County Code
Chapter 12.04.”
In a letter to County counsel dated August 26,
2015, counsel for the Sohns stated:
“As you are apparently aware,
there is some litigation going on
between my clients on the one side and
some of their neighbors on the private
roadway known as Vista Grande Way,
on the other. One of the issues that has
surfaced in the litigation and dispute is
the exact role of . . . County with regard
to the roadway and the easement in
which the roadway lies. Specifically, it
is my understanding that in 1980 when
the area was first developed, the
developer did offer for dedication a 60
foot wide easement for . . . public access
and maintenance. However, it is also
my information that the Board of
Supervisors declined to accept the offer
from the developer. Such conduct
certainly was not unusual in that . . .
rural counties did not wish to be
burdened with the responsibility of
maintenance of these easements and
roadways; thus, they became, in
essence, private roads.

App 18

“My understanding and
experience has been whenever the
counties refused to accept . . . the
responsibility that those roadways did
revert to private roadways and the
counties basically took no further
interest in or had any involvement in
those roadways. In that vein, I refer
you to a letter sent to my clients in
May, 2004, from . . . County . . . . At
that time, the letter was prompted by a
concern that my clients had regarding
various fencing and landscaping that
. . . [their] neighbors had constructed.
[County] . . . indicated in [the] letter
that . . . County had no interest in the
easement and would not take any
action. The Sohns then, over the next
ten years, relied on that letter . . . .”
On November 4, 2016, the Sohns filed their
original complaint. On April 18, 2017, they filed the
operative complaint in which they pled multiple
causes of action, including one for damages under
section 1983 against County defendants. The Sohns
detailed:
“The acts that are the subject of
[the section 1983] claim occurred on or
after May 26, 2015, in Mariposa
County, California. At that time and
place, [County] Defendants interfered
with the exercise and enjoyment of

App 19
Plaintiff[s’] civil rights as guaranteed
by the United States Constitution . . . .
Specifically, [County] Defendants . . .
interfered with Plaintiffs’ civil rights, in
that [County] Defendants, or their
agents acting under color of law, came
on to Plaintiffs’ property . . . and
removed personal property of
Plaintiffs[’], violating Plaintiffs’
Constitutional rights to be free of an
unlawful search and seizure and free
from a deprivation of property without
due process of law. [¶] . . . As a direct
and proximate result of the conduct of
[County] Defendants, . . . Plaintiffs
have suffered and will continue to
suffer a loss of access and use of their
real property and loss of personal
property.” (Boldface omitted.)
County defendants filed a demurrer on June
23, 2017. They asserted the complaint failed to state
facts sufficient to constitute each cause of action.
With respect to the section 1983 claim, County
defendants pointed out the complaint failed to allege
(1) the claimed constitutional violations were caused
by official policy, regulation, custom, or practice; and
(2) Stobbe, Taylor, Marks, and/or Ziegenfuss
possessed final policymaking authority.
On July 25, 2017, the Sohns filed their
opposition to the demurrer. Regarding the section
1983 claim, they stated:

App 20

“Plaintiffs agree . . . that for the
reasons stated in the demurrer the
plaintiffs . . . have failed to state a
cause of action. Plaintiffs request leave
of court to amend.”
A hearing on the demurrer was held on
September 15, 2017. There, the Sohns’ counsel
requested leave to amend the complaint. Following
the hearing, in an order filed on the same day, the
court sustained the general demurrer “to the entire
[complaint]” without leave to amend. The judgment
of dismissal was also entered on the same day.
DISCUSSION
On appeal, the Sohns challenge the superior
court’s ruling solely as it pertains to the section 1983
claim against County defendants.
I.

Standard of review

“A demurrer tests the legal sufficiency of the
complaint.” (In re Social Services Payment Cases
(2008) 166 Cal.App.4th 1249, 1263.) “In reviewing a
demurrer that is sustained without leave to amend,
an appellate court assumes the truth of (1) all facts
properly pleaded by the plaintiff, (2) all facts
contained in exhibits to the complaint, (3) all facts
that are properly the subject of judicial notice, and
(4) all facts that reasonably may be inferred from the
foregoing facts.” (Neilson v. City of California City
(2005) 133 Cal.App.4th 1296, 1305.) “The reviewing

App 21
court does not assume the truth of contentions,
deductions or conclusions of law.” (Ibid.) Also, “we
may disregard allegations which are contrary to law
or to a fact of which judicial notice may be taken.”
(In re Social Services Payment Cases, supra, at p.
1263.)
“On appeal from a judgment of dismissal
entered after a demurrer has been sustained without
leave to amend, unless failure to grant leave to
amend was an abuse of discretion, the appellate
court must affirm the judgment if it is correct on any
theory. [Citations.] If there is a reasonable
possibility that the defect in a complaint can be
cured by amendment, it is an abuse of discretion to
sustain a demurrer without leave to amend.
[Citation.]” (Hendy v. Losse (1991) 54 Cal.3d 723,
742.) “ ‘The plaintiff has the burden of proving that
[an] amendment would cure the legal defect, and
may [even] meet this burden [for the first time] on
appeal.’ [Citations.]” (Sierra Palms Homeowners
Assn. v. Metro Gold Line Foothill Extension
Construction Authority (2018) 19 Cal.App.5th 1127,
1132.)
II.

Analysis

Per section 1983, “[e]very person who, under
color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of
Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the

App 22
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceeding for redress . . . .”
The Sohns concede their complaint failed to
state facts sufficient to constitute a section 1983
claim but insist the court should have granted their
request for leave to amend. They identify two ways
to cure the defect. First, the complaint would be
amended to allege County did not properly accept
either the Bishop map’s or the Huntley map’s offer to
dedicate the public access and public utility
easements; therefore, County defendants had no
legal authority to enter the Sohns’ real property on
May 26, 2015. The Sohns state in their opening
brief:
“As envisioned, the Subdivision
Map Act[3] (‘SMA’) . . . was enacted to
provide a relatively uniform way that
division of property would be regulated
within the State of California. Section
66411 of the SMA delegated the
responsibility of ‘[R]egulation and
control of the design and improvement
of subdivisions . . .’ to the ‘. . . legislative
bodies of local agencies’ which were to
‘. . . regulate and control subdivisions
for which this division requires a
tentative and final or parcel map. Such
ordinance shall specifically provide for
proper grading and erosion control,
3

Government Code section 66410 et seq.

App 23
including the prevention of
sedimentation or damage to off-site
property.’ . . . County has provided its
regulation and control of subdivisions
in Mariposa County Code . . . Title 16.
“. . . [S]ection 66440 of the . . .
SMA requires the legislative body, (in
this instance, . . . County Board of
Supervisors), to either ‘accept, accept
subject to improvements, or reject any
Offer of Dedication’ at the time the final
map is approved and to record this
decision on the final map prior to or
concurrent with the filing of the final
parcel map.
“Government Code section 66447
requires that all dedications, or offers of
dedication must be noticed by
certificate on the parcel map, or
separate instrument, and must be
recorded concurrently with, or prior to
the parcel map being filed for record.
“In this case, it is undisputed
that . . . County did not ‘accept, accept
subject to improvements, or reject’
either the Bishop or the Huntley Offers
of Dedication at the time their final
maps were approved and it did not
record any such decision on the final
maps prior to or concurrent with the
filing of the final parcel maps as

App 24
required by Government Code section[]
66440. Nor were the offers of
dedication noticed by certificate on the
parcel maps, or separate instrument,
recorded concurrently with, or prior to
the parcel map being filed for record as
required by Government Code section
66447.” (Fns. omitted.)
Second, the complaint would be amended to
allege County defendants conspired with Bishop,
Huntley, and other developers and/or subdividers
between 1977 and 1987 to knowingly and
intentionally circumvent the Subdivision Map Act by
exploiting the “ ‘minor subdivision’ ” exception under
Government Code section 66412.5. The Sohns state
in their opening brief:
“Plaintiffs allege that prior to
and subsequent to 1980, developers of
property in Mariposa County, in an
effort to circumvent the requirement
that they comply with the Subdivision
Map Act, began a practice of creating
what has become known to some as ‘4 x
4’s.’ Under this scheme, the
developer/subdivider would submit for
approval a parcel map which sought to
subdivide the developer’s property into
four parcels. Three of the parcels would
be of relative uniform size whereas the
fourth parcel would be substantially
larger. Shortly after the subdivision
into four parcels, the largest parcel was

App 25
transferred to another person who
would submit for approval another
parcel map dividing that larger parcel
into four parcels of substantially the
same size as the three smaller parcels
in the first parcel map. Because each of
the subdivisions would be made up of
only four parcels [or fewer], each would
be treated by . . . County as a ‘minor
subdivision’ which did not require full
compliance with the SMA. The end
result was that the original contiguous
parcel of land would, over a short period
of time, be divided into seven parcels
without compliance with the SMA,
resulting in a loss of the SMA’s
protections to the subsequent
purchasers of the lots.
“This is precisely what happened
in plaintiffs’ subdivision. [¶] It is
undisputed that in January, 1980, Gary
Bishop subdivided a previously
contiguous piece of property into four
pieces of property in which Parcel A
consisted of approximately 5.418 acres;
Parcel B consisted of approximately
5.226 acres; Parcel C consisted of
approximately 5.641 acres, whereas
Parcel D consisted of approximately
21.424 acres. The map was ‘approved’
and recorded on January 21, 1980.
[Citation.]

App 26

“Two months later, in March,
1980, shortly after the Bishop
subdivision was recorded, Dennis
Huntley became the owner of Parcel D.
He applied to . . . County to have Parcel
D subdivided by way of a parcel map.
This subdivision was approved and the
map recorded on June 6, 1980, a mere
135 days after the recording of the
Bishop map. [Citation.] The end result
is that the original 21.424 acres of
former Parcel D is divided into four,
substantially equal five acre parcels.
Accordingly, in less than six months, a
subdivision of seven parcels was created
without compliance with the SMA.
“Plaintiffs further allege and
seek to amend to allege that between
1977 and 1987 there were dozens of
occasions in which similar ‘4 x 4’
subdivisions were approved by . . .
County, compelling evidence that . . .
County and the developers of these
subdivisions were engaged in a
knowing and intentional scheme to
circumvent the requirements of the
SMA and that they engaged in overt
acts to accomplish this scheme.”
County defendants contend, inter alia,
notwithstanding the aforementioned amendments,
the Sohns’ section 1983 claim still would have been

App 27
barred by the applicable statute of limitations. The
Sohns counter (1) “they did not know of . . . County’s
purported acceptance of the 1980 offers of dedication
until sometime after May of 2015”; and (2) “they did
not become aware until approximately late March of
2016, that . . . the division of a large parcel into
three smaller parcels and one larger one, followed
very soon after by the division of the large parcel
into four smaller parcels . . . , was repeated, with the
approval of . . . County, many dozens of times over
the course of several years.”
“It is well-established that claims brought
under [section] 1983 borrow the forum state’s statute
of limitations for personal injury claims, [citation],
and in California, that limitations period is two
years. [Citation.]” (Action Apartment Assn. v. Santa
Monica Rent Control Opinion Bd. (9th Cir. 2007) 509
F.3d 1020, 1026; see McDougal v. County of Imperial
(9th Cir. 1991) 942 F.2d 668, 673-674 [“An action
under [title 42 United States Code section] 1985(3)
alleging a conspiracy to deprive a person of
constitutional rights is designed to remedy the same
types of harms as the deprivations actionable under
[section] 1983. Accordingly, . . . suits under [title 42
United States Code section] 1985(3) are also best
characterized as personal injury actions and are
governed by the same statute of limitations as
actions under [section] 1983.”].) “ ‘Generally, the
statute of limitations begins to run when a potential
plaintiff knows or has reason to know of the asserted
injury.’ [Citation.]” (Action Apartment Assn. v.
Santa Monica Rent Control Opinion Bd., supra, at
pp. 1026-1027; see Gutierrez v. Mofid (1985) 39

App 28
Cal.3d 892, 897 [“[A] limitations period dependent
on discovery of the cause of action begins to run no
later than the time the plaintiff learns, or should
have learned, the facts essential to his claim.”].)
“The applicable principle has been expressed as
follows: ‘when the plaintiff has notice or information
of circumstances to put a reasonable person on
inquiry, or has the opportunity to obtain knowledge
from sources open to his investigation . . . the statute
commences to run.’ [Citation.]” (Sanchez v. South
Hoover Hospital (1976) 18 Cal.3d 93, 101.) “[F]or a
demurrer based on the statute of limitations to be
sustained, the untimeliness of the lawsuit must
clearly and affirmatively appear on the face of the
complaint and matters judicially noticed.” (Coalition
for Clean Air v. City of Visalia (2012) 209
Cal.App.4th 408, 420.)
The Sohns’ first proposed amendment would
allege (1) County did not accept the offers of
dedication at the time the final Bishop and Huntley
maps were approved and did not record this decision
on these maps prior to or concurrent with their
filing; (2) the offers of dedication were not noticed by
certificate on the Bishop and Huntley maps; and
(3) the offers of dedication were not noticed by
separate instrument recorded concurrently with, or
prior to the Bishop and Huntley maps being filed for
record. Their second proposed amendment would
allege County defendants conspired with Bishop and
Huntley, inter alios, to engage in “4 x 4” schemes, as
explained above. (See ante, at pp. 9-10.)
The documents before us demonstrate the
Bishop and Huntley maps were recorded in 1980.

App 29
(See Civ. Code, § 1213 [conveyance of real property
recorded as prescribed by law provides constructive
notice of its contents to subsequent purchasers]; see
also John Taft Corp. v. Advisory Agency (1984) 161
Cal.App.3d 749, 756 [recorded subdivision maps
“partake[] of the qualifications of a conveyance”].)
The June 28, 1999 grant deed explicitly described
the Sohns’ acquired property as “Parcel A as shown
on the Parcel Map for Dennis Huntley filed June 4,
1980 in Book 17 of Parcel Maps at Page 24,
Mariposa County Records.” In turn, the Huntley
map indicated the Sohns’ property bordered
“(BISHOP)” land and referred to public access and
public utility easements “BY PARCEL MAP BOOK
17 PAGE 10,” i.e., the Bishop map. On even a
cursory examination, the Bishop and Huntley maps
openly display how Bishop’s original property was
apportioned into seven parcels of roughly similar
size. Moreover, assuming the facts pleaded by the
Sohns are true, these maps would not have a
recording of County’s acceptance of their offers of
dedication, a certificate of said offers, or a separate
instrument of said offers recorded concurrently with
or prior to the maps’ filing. (See Caito v. United
California Bank (1978) 20 Cal.3d 694, 702 [“A
recorded instrument . . . [gives] constructive notice
. . . of its own contents and of other documents
referred to by it.”]; American Medical International,
Inc. v. Feller (1976) 59 Cal.App.3d 1008, 1020-1021
[rule of constructive notice extends to whatever
knowledge would be gained from investigating
document referenced in recorded instrument].)

App 30
With respect to their first proposed
amendment, the Sohns invoke the doctrine of
equitable estoppel, arguing they “justifiably relied
on . . . County’s [May 28,] 2004 representation that it
had ‘accepted’ the offered parcel map easement” and
“had no reason . . . to doubt the accuracy of . . .
County’s assertion and no reason to investigate it.”
“The doctrine of equitable estoppel is founded on
concepts of equity and fair dealing. It provides that
a person may not deny the existence of a state of
facts if he intentionally led another to believe a
particular circumstance to be true and to rely upon
such belief to his detriment. The elements of the
doctrine are that (1) the party to be estopped must
be apprised of the facts; (2) he must intend that his
conduct shall be acted upon, or must so act that the
party asserting the estoppel has a right to believe it
was so intended; (3) the other party must be
ignorant of the true state of facts; and (4) he must
rely upon the conduct to his injury.” (Strong v.
County of Santa Cruz (1975) 15 Cal.3d 720, 725.)
Here, because the Sohns had constructive notice of
the Bishop and Huntley maps well before 2004, more
than 12 years before they filed their original
complaint, they cannot claim ignorance of what they
have set forth as the “true state of facts.” (See
Citizens for Covenant Compliance v. Anderson (1995)
12 Cal.4th 345, 355 [“Constructive notice ‘is the
equivalent of actual knowledge; i.e., knowledge of its
contents is conclusively presumed.’ ”].)

App 31
DISPOSITION
The judgment is affirmed. Costs on appeal
are awarded to defendants and respondents County
of Mariposa, Mariposa County Department of Public
Works, Tony Stobbe, Gary Taylor, Russell Marks,
and Mike Ziegenfuss.
/s/ Detjen
DETJEN, J.
WE CONCUR:
/s/ Poochigian
POOCHIGIAN, Acting P.J.
/s/ Meehan
MEEHAN, J.

App 32
Court of Appeal, Fifth Appellate
District
Brian Cotta, Clerk/Executive Officer
Electronically FILED on 4/9/2020 by
JEVANS, Deputy Clerk
IN THE
Court of Appeal of the State of California
IN AND FOR THE
Fifth Appellate District
DANIEL SOHN et al.,

)
)
Plaintiffs and Appellants,
)
v.
)
COUNTY OF MARIPOSA et al. )
)
Defendants and Respondents )
___________________________
)

F076677
ORDER
DEN YING
PETITION FOR
REHEARIN G

Appellants’ petition for rehearing filed on April
8, 2020, in the above referenced case is hereby
denied.
/s/ Detjen
DETJEN , J.
WE CONCUR:
/s/ Poochigian
POOCHIGIAN, Acting P.J.
/s/Meehan
MEEHAN, J.

App 33
SUPREME COURT
FILED
JUN 17 2020
Jorge Navarrete Clerk
______________________
Deputy
Court of Appeal, Fifth Appellate District-No. F07667
S21854
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________
DANIEL SOHN et al., Plaintiffs and Appellants,
v.
COUNTY OF MARIPOSA et al., Defendants and
Respondents.
__________________________________________
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

